App. 1
APPENDIX
Randy E. Barnett is Carmack Waterhouse Professor of Legal Theory at the Georgetown University Law
Center and is Director of the Georgetown Center for
the Constitution. He is the author of 12 books, including the textbook Constitutional Law: Cases in Context
(3rd ed. 2018). Among the cases he has litigated are
NFIB v. Sebelius and Gonzales v. Raich. His scholarship has been cited by the D.C., Third, Sixth, Seventh,
Ninth, and Eleventh Circuits; the supreme courts of
New Jersey, Oklahoma, Oregon, Washington, and Wisconsin; and federal district courts in six states.
Royce de R. Barondes is James S. Rollins Professor
of Law at the University of Missouri School of Law. He
teaches firearms law and business law. His research on
firearms law is published by the Houston Law Review
and University of Virginia Journal of Law & Politics.
Robert J. Cottrol is Harold Paul Green Research
Professor of Law at George Washington. His scholarship was cited in Justice Thomas’s concurring opinions
in McDonald v. Chicago and Printz v. United States,
and by the Fourth Circuit in Kolbe v. Hogan, 849 F.3d
114 (2017) (Traxler, J., dissenting). Prof. Cottrol is author of four legal history books on race and law, and
editor of a three-volume anthology of the right to arms.
He wrote the entries for “The Right to Bear Arms” in
The Oxford International Encyclopedia of Legal History and “The Second Amendment” in The Oxford Companion to the Supreme Court of the United States. His
Second Amendment scholarship has been published in

App. 2
the Yale Law Journal, Georgetown Law Journal, and
Journal of American Legal History.
Nicholas J. Johnson is Professor of Law at Fordham University, School of Law. He is co-author of the
first law school textbook on the Second Amendment,
Firearms Law and the Second Amendment: Regulation, Rights, and Policy (Aspen Pub. 2d ed. 2017) (with
David B. Kopel, George A. Mocsary, and Michael P.
O’Shea). The casebook has been cited by majorities in
People v. Chairez (Supreme Court of Illinois) and Grace
v. District of Columbia (D.C. Cir.), and by dissents in
Drake v. Filko (3d Cir.) and Heller II (D.C. Cir.). Professor Johnson is also author of Negroes and the Gun: The
Black Tradition of Arms (2014). His articles on the
right to arms have been published by the Hastings
Law Review, Ohio State Law Journal, and Wake Forest
Law Review. Other courts citing his right to arms
scholarship include the Seventh Circuit, Eastern District of New York, and Washington Court of Appeals.
Joyce Malcolm is Patrick Henry Professor of Constitutional Law and the Second Amendment at George
Mason University, Antonin Scalia Law School. She is
author of seven books on British and American history,
most notably To Keep and Bear Arms: The Origins of
an Anglo-American Right (Harvard Univ. Pr. 1994).
The book was cited by the majority opinions in District
of Columbia v. Heller and McDonald v. City of Chicago,
by Justice Thomas’s concurrence in Printz v. United
States, and by the D.C., Fourth, and Ninth Circuits; by
federal district courts in Oregon, Pennsylvania, Texas,
and West Virginia; and by the Oregon Supreme Court,

App. 3
Oregon Court of Appeals, and Washington Supreme
Court.
George A. Mocsary is Professor of Law at the University of Wyoming College of Law. He is co-author of
the textbook Firearms Law and the Second Amendment, described more fully in conjunction with Professor Johnson. His articles have appeared in the BYU
Law Review, George Washington Law Review, and
Duke Law Journal Online. His Second Amendment
scholarship was cited by this Court in McDonald v.
Chicago, and by the Fourth and Seventh Circuits.
Joseph E. Olson is emeritus Professor of Law at
Mitchell Hamline School of Law, where he taught Second Amendment, business law, and tax law. His scholarship on the right to arms was cited by District of
Columbia v. Heller, and also by the Ninth Circuit,
Eastern District of New York, and Washington Supreme Court. His articles on the right have appeared
in the Stanford Law and Policy Review, Georgetown
Journal of Law & Public Policy, and Michigan Journal
of Law Reform.
Michael P. O’Shea is Professor of Law at Oklahoma City University School of Law. He is co-author of
the Firearms Law textbook described above. His Second Amendment scholarship has been published in
Yale Law Journal Online, Connecticut Law Review,
and American University Law Review. He has been
cited by the Seventh, Ninth, and Tenth Circuits, the Illinois Supreme Court, and the Puerto Rico Tribunal de
Apelaciones.

App. 4
Glenn H. Reynolds is Beauchamp Brogan Distinguished Professor of Law at the University of Tennessee College of Law, where he teaches constitutional law
and technology law. His constitutional scholarship has
been published in the Columbia Law Review, Virginia
Law Review, University of Pennsylvania Law Review,
Wisconsin Law Review, and Northwestern University
Law Review. The Seventh Circuit cited his scholarship
as a model of “originalist interpretive method as applied to the Second Amendment.” Ezell v. City of Chicago, 651 F.3d 684, 699 n.11 (7th Cir. 2011). In addition,
his right to arms scholarship has been cited by the
First, Third, Fourth, Fifth, Seventh, Eighth, and Ninth
Circuits; by federal district courts in Wisconsin, Illinois, and Texas; and by the Supreme Courts of Kentucky and Oregon.
Eugene Volokh is Gary T. Schwartz Distinguished
Professor of Law, at UCLA School of Law. He is author
of three textbooks, including The First Amendment and
Related Statutes (6th ed. 2016). He is also author of 90
law review articles, most of them on the First or Second
Amendments. His work has been cited in all three of
this Court’s modern Second Amendment cases, Heller,
McDonald, and Caetano, and in the dissent from denial
of certiorari in Peruta v. California. Justices have cited
his First Amendment scholarship in Janus v. AFSCME
(2018), U.S. v. Alvarez (2012), Christian Legal Society
v. Martinez (2010), and Avis Rent A Car System, Inc. v.
Aguilar (2000). His work has also been cited in 91 Circuit Court of Appeals cases, 57 U.S. District Court
cases, and 48 state appellate cases.

App. 5
E. Gregory Wallace is Professor of Law at Campbell University School of Law, where his constitutional
law courses include a course on the Second Amendment. He recently published an article on “Assault
Weapon” Myths in the Heller symposium issue of the
Southern Illinois Law Journal. He has spoken on Second Amendment issues in various law school symposia
and recently supervised the Campbell Symposium on
the tenth anniversary of the Heller decision. He is coauthor of forthcoming online supplemental chapters in
the Johnson, et al., Firearms Law textbook.

